Department of Homeland Security
   Ofﬁce of Inspector General

              Efforts to Detect and Deter Fraud 

             Committed by Immigration Services 

                           Officers 





OIG-10-118                                    September 2010
                                                            Office ofInspector General

                                                            U.S. Department of Homeland Security
                                                            Washington, DC 20528




                                                            Homeland
                        SEP 1 5 2010                        Security

                                         Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

This report addresses the strengths and weaknesses of the effort to prevent fraudulent and
criminal activity by Immigration Services Officers at U.S. Citizenship and Immigration
Services. It is based on interviews with employees and officials of relevant agencies and
institutions, direct observations, and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We

oxp"" on, 'pp"ci,uon to of ,I thO?
trust this report will result in more effective, efficient, and economical operations. We
                                            ~t:;Lh'::::::::;'; <opon.


                                     Richard L. Skinner
                                     Inspector General
Table of Contents/Abbreviations
Executive Summary .............................................................................................................1


Background ..........................................................................................................................2 


Results of Review ................................................................................................................3 


     OSI’s Progress on Employee Reporting Can Be Further Promoted ..............................3 

     Recommendation ...........................................................................................................5 

     Management Comments and OIG Analysis ..................................................................6 


     The Effectiveness of Wall Posters Can Be Increased....................................................6 

     Recommendation ...........................................................................................................8 

     Management Comments and OIG Analysis ..................................................................8 


     Greater Interaction Is Needed Between OSI and Field Offices.....................................9 

     Recommendation .........................................................................................................11 

     Management Comments and OIG Analysis ................................................................11 


     The Integrity Coordinating Committee Should Include Field Representatives...........11 

     Recommendation .........................................................................................................12 

     Management Comments and OIG Analysis ................................................................12 


     Policy Focus on Employee Discipline Would Be Beneficial ......................................12 

     Recommendation .........................................................................................................13 

     Management Comments and OIG Analysis ................................................................13 


     Training Should Present More Examples of Misconduct ............................................14 

     Recommendation .........................................................................................................15 

     Management Comments and OIG Analysis ................................................................15 


Appendixes
     Appendix A:           Purpose, Scope, and Methodology.......................................................16 

     Appendix B:           Management Comments to the Draft Report .......................................17 

     Appendix C:           Fifteen Examples of Misconduct That Must Be Reported...................20 

     Appendix D:           The Survey of Service Center ISOs .....................................................21 

     Appendix E:           Major Contributors to This Report ......................................................24 

     Appendix F:           Report Distribution ..............................................................................26 


Abbreviations
     DHS                   Department of Homeland Security 

     FSM                   Field Security Manager 

     ICC                   Integrity Coordinating Committee 

     ISO                   Immigration Services Officer 

     LSO                   Local Security Officer 

     OIG                   Office of Inspector General 

OSI     Office of Security and Integrity
USCIS   United States Citizenship and Immigration Services




                                I

OIG

Department of Homeland Security
Office of Inspector General

Executive Summary
                    United States Citizenship and Immigration Services processes
                    immigration benefit applications and petitions. Immigration
                    Services Officers, who process benefit requests, sometimes commit
                    fraudulent activities, such as accepting bribes or other favors in
                    exchange for immigration benefits. The Office of Security and
                    Integrity, created in 2007, leads the effort to detect and deter
                    employee misconduct.

                    We evaluated current programs that detect and deter Immigration
                    Services Officer malfeasance. Through numerous interviews with
                    all levels of employees, and an online survey of 292 adjudicators
                    selected at random, we gathered a wide variety of observations and
                    suggestions regarding employee misconduct. As we examined the
                    office’s current practices, we identified ways to enhance training and
                    promote the Office of Security and Integrity mission.

                    Although the current training program has emphasized employees’
                    ethical responsibilities, a renewed directive from the uppermost
                    managers on the existing requirement to report possible misconduct
                    would further strengthen the effort. Greater interaction between the
                    Office of Security and Integrity and the offices that process benefit
                    applications would provide new perspectives on preventing
                    employee fraud. We are making six recommendations to improve
                    the Office of Security and Integrity’s overall efforts to counter
                    employee misconduct.




          Efforts to Detect and Deter Fraud Committed by Immigration Services Officers 


                                             Page 1

Background
                            United States Citizenship and Immigration Services (USCIS)
                            processes applications for immigration and citizenship benefits.
                            With a staff of 10,700 full-time employees and an annual budget of
                            approximately $2.6 billion, USCIS processes six million
                            applications for immigration benefits each year. This makes
                            USCIS the largest immigration service in the world.1 Benefit
                            applications are processed in four large service centers, at the
                            National Benefits Center, at 26 district offices throughout the
                            country, and at 46 field offices that are district subcomponents.
                            Each day, these offices issue approximately 7,300 lawful
                            permanent resident benefits and naturalize 3,400 new citizens.2
                            Benefit applications are also processed abroad. However, we did
                            not review foreign offices, as this was outside the scope of our
                            assessment.

                            Immigration Services Officers (ISOs), also known as adjudicators,
                            process benefit requests. Some adjudicators have committed
                            fraudulent activities, such as accepting bribes or other favors in
                            exchange for favorable case determinations. Since 2007, 10
                            USCIS employees or contractors have been convicted of criminal
                            acts. We did not receive timely information regarding the number
                            of instances of alleged employee misconduct in the first quarter of
                            2010.

                            The most notable occurrence of ISO fraud was the Robert
                            Schofield case. Schofield was a supervisory adjudicator who, over
                            an 8-year period, falsified documents and received more than
                            $600,000 in bribes. Upon his conviction in April 2007, he was
                            sentenced to 15 years in prison for bribery and falsifying
                            naturalization certificates. Other adjudicators have been sentenced
                            for sexual assault, inappropriately accessing official information,
                            and other offenses.

                            The Office of Security and Integrity (OSI), created in 2007, leads
                            the USCIS effort to deter and detect employee misconduct. OSI’s
                            mandate includes other duties, such as administering the USCIS
                            personnel, physical, and administrative security programs. The
                            Field Operations and Service Center Operations Directorates,
                            which oversee the offices and centers that process benefits, are
                            outside of OSI’s chain of command, as illustrated in Figure 1.

1
    http://www.uscis.gov/files/nativedocuments/operations_data.pdf
2
    http://www.uscis.gov/files/nativedocuments/dayinthelife.pdf


                 Efforts to Detect and Deter Fraud Committed by Immigration Services Officers 


                                                    Page 2

                    Figure 1. Abbreviated USCIS Organization Chart




                    Adjudicator misconduct can affect national security. For example,
                    as many as 700 persons were inappropriately given immigration
                    benefits as a result of Schofield’s illicit schemes. Relatives of an
                    individual who receive benefits through USCIS employee fraud
                    may subsequently appear to be eligible for their own immigration
                    benefits. This can create a cascading effect of fraud. OSI has
                    worked with the USCIS Office of Transformation to improve
                    information systems and identify those parts of the immigration
                    process that adjudicators could exploit with the intent to use their
                    position inappropriately.

Results of Review
     OSI’s Progress on Employee Reporting Can Be Further Promoted
                    The USCIS Director Should Reiterate OSI Reporting Policy

                    OSI is logically positioned within USCIS as part of the
                    Management Directorate. It has an enterprise-wide perspective
                    and provides recommendations for improving all USCIS
                    operations, not just those of the Field and Service Center
                    Directorates.

                    For an employee wishing to report a colleague’s suspicious
                    behavior, OSI serves as an entity outside the employee’s chain of
                    command, to which the employee can anonymously report
                    suspicious activities. OSI has established a reporting system that
                    allows for an OSI or Office of Inspector General (OIG)
                    investigation of misconduct allegations submitted by employees.
                    Giving employees an opportunity to notify OSI of a colleague’s


         Efforts to Detect and Deter Fraud Committed by Immigration Services Officers 


                                            Page 3

           suspicious behavior is central to program integrity. Many of our
           interviewees said that the Schofield case became so serious
           because individuals who knew of his questionable actions did not
           wish to confront him because he had supervisory authority.

           OSI’s reporting policy is clear. In an August 2009 memo to all
           USCIS employees, the Chief of OSI informed employees of their
           duty to report suspicious behavior or possible illicit activities. The
           memo provides 15 examples of misconduct “that must be reported
           immediately” to OSI or through the Department of Homeland
           Security (DHS) OIG Hotline. These improper behaviors include
           bribery, theft, and a range of actions that constitute a misuse of
           official position. Appendix C lists the 15 behaviors. OSI policy
           does not limit required reporting to these 15 examples.

           However, OSI’s position outside of the chain of command of
           adjudicators can inhibit some reporting. As part of our fieldwork,
           we conducted an online survey of 292 service center adjudicators.
           The survey results provide perspective on the implementation of
           OSI’s reporting policy. Although 77% of survey respondents said
           that they would report suspicious activity, we found a range of
           opinions about where and how to report suspicious activity. Many
           employees do not understand that the policy specifically requires
           reporting outside of their management. Various interviewees and
           survey respondents said that USCIS has a rigid culture that stresses
           the local chain of command. Therefore, adjudicators have a
           natural tendency to report alleged misconduct to their own
           supervisors, rather than to OSI. Some survey respondents
           expressed confusion about where allegations of misconduct should
           be directed:

             “Additional guidance needs to be made if the person in question is a
             supervisor. Should the person go directly to [OSI or the] OIG or
             should they go to the next person up the chain of command to discuss
             this issue?”

             “I am not readily aware of the reporting protocol . . . I do not know
             who internally one would report concerns to, other than through my
             supervisor. I do feel confident that if faced with such a situation, I
             could find out who to contact through local management.”

           Some Field Security Managers (FSMs), OSI employees who work
           at benefit processing offices, said that local management may
           prefer that allegations be reported through supervisory channels.


Efforts to Detect and Deter Fraud Committed by Immigration Services Officers

                                  Page 4
           These FSMs said that they would hesitate to clarify the reporting
           policy if local management did not stress the reporting scheme
           required in the August 2009 memo. Other FSMs said that field
           offices give employees an option to report to local management, or
           that the OSI reporting system was secondary if a district preferred
           that allegations go through an adjudicator’s field managers. Our
           survey confirmed that many employees are more comfortable
           reporting to their own supervisor. Even though most adjudicators
           understood the allegation reporting policy, 22% of respondents
           answered that they would be very uncomfortable reporting
           allegations without first contacting a supervisor. Such a
           perspective is contrary to the immediate reporting duty established
           in USCIS policy.

           An issue that relates to the reporting policy arose in many of our
           interviews and survey results: the protection of employees who
           report suspected misconduct from hostility and retribution. As
           with the reporting issue, we identified a range of opinion on what
           retribution or hostility an employee might suffer after reporting a
           colleague’s suspicious behavior. Many adjudicators stated that
           they would hesitate to report misconduct because of the negativity
           surrounding whistleblowers. Based on our survey results, 33% of
           the responses indicated a fear that USCIS culture, which is focused
           on processing applications and adhering to the chain of command,
           would not support an informant. Various staff expressed concern
           about reporting misconduct, even though OSI’s reporting process
           can be anonymous.

           It is likely that the employees who expressed hesitancy and feared
           retribution were imagining themselves reporting one colleague to
           another, rather than making an anonymous report to OSI.
           Nevertheless, the range of opinion was too wide to ensure that
           employees feel empowered to report their suspicions.

           The Director of USCIS should reiterate the reporting policy that
           OSI articulated in the August 2009 memo. This would help
           employees understand that reporting allegations to OSI or the OIG
           is the officially sanctioned process instead of reporting to a
           colleague or a superior.

  Recommendation
  We recommend that the Director, U.S. Citizenship and Immigration
  Services:



Efforts to Detect and Deter Fraud Committed by Immigration Services Officers 


                                   Page 5

      Recommendation #1: Issue guidance to all field offices that reiterates
      USCIS employee reporting responsibilities as discussed in the August
      2009 Office of Security and Integrity memorandum.

      Management Comments and OIG Analysis
      USCIS concurred with all of our 6 recommendations. We evaluated
      written comments we received from OSI and made changes where
      appropriate. A summary of the USCIS response to our recommendations
      and our analysis is included below. A copy of the entire USCIS response
      is included as Appendix B.

      Additional information that discusses actions taken on the
      recommendations should be included in the USCIS corrective action plan
      due within 90 days of the issuance of this report.

      Management Comments to Recommendation #1
      USCIS concurred with this recommendation. In the fourth quarter of Fiscal
      Year 2010, the USCIS Director will send quarterly messages to employees
      about the importance of and procedures for reporting possible misconduct.

      OIG Analysis
      Messages from the Director of USCIS will be an important means to
      informing employees about the need to report misconduct. This
      recommendation is resolved and open pending receipt of the first quarterly
      message on the reporting of alleged misconduct.

The Effectiveness of Wall Posters Can Be Increased
        OSI has created a range of posters to remind employees of the
        importance of ethical conduct and the need to inform OSI about
        allegations of employee misbehavior. The posters create and maintain
        employee awareness about their responsibilities and the important role
        of each employee in protecting the integrity of USCIS programs.
        Posters usually include information on how to report employee
        misconduct or security violations to OSI. OSI makes available on its
        intranet site guidance to staff about displaying posters. Next to two
        misconduct-reporting posters on OSI’s website, a message notes:
        “Prominently display this poster in all USCIS spaces not open or visible
        to the public.”

        In our survey, 64% of the respondents said that they do not notice
        posters during their daily activities at the four service centers. Only 3%
        reported that there are a number of highly visible posters in their work
        environment. We visited various district offices and noticed that OSI


    Efforts to Detect and Deter Fraud Committed by Immigration Services Officers 


                                       Page 6

    posters are not always prominently displayed. In some offices, we saw
    only smaller versions of a reporting poster, the larger version of which
    we saw in the OSI Office of Investigations headquarters. While visiting
    one office, we did see the large version of the poster, but it was located
    outside of the FSM’s office in an infrequently used side hallway. The
    size and placement of OSI posters could be enhanced in most USCIS
    field offices to ensure that employees have reminders about their ethical
    and reporting responsibilities.

    Posters highlighting the cases of convicted USCIS employees could
    further develop ethics and reporting messages. Employees would
    become aware of the criminal conduct of their former colleagues and the
    punishment received. Posters that feature specific, convicted
    adjudicators could be more meaningful for some employees than general
    directives to report suspicious activities.

    Other federal agencies have used incidents of criminal employee
    conduct as a training tool. For example, the Office of the National
    Counterintelligence Executive, part of the Office of the Director of
    National Intelligence, has created such posters. Figure 2 is a poster that
    discusses Robert Hanssen, a Federal Bureau of Investigation employee
    who provided U.S. security information to the Soviet Union for 22
    years. Hanssen is now serving a life sentence for betraying his country.
  Figure 2. Robert Hanssen Conviction Poster




  Source: Office of the National Counterintelligence Executive




Efforts to Detect and Deter Fraud Committed by Immigration Services Officers 


                                   Page 7

  One survey respondent suggested that USCIS create such posters to
  inform employees about the cost of violating the public trust. The
  respondent suggested that OSI—

    “Make a poster showing actual Officers/Managers who have
    been caught and sent to prison. The poster would have them
    holding their prisoner number card, would briefly describe
    the offense committed, and the sentence given.”

  This type of poster would instill a powerful message. OSI should create
  such posters to augment ethics and reporting lessons.

  Recommendation
  We recommend that the Chief, Office of Security and Integrity, in
  consultation with the Associate Directors of the Field Operations and
  Service Center Operations Directorates:

  Recommendation #2: Create and display posters that describe the crimes
  and sentences of convicted USCIS employees as a means to facilitate
  ethics and promote misconduct reporting.

  Management Comments and OIG Analysis

  Management Comments to Recommendation #2
  USCIS concurred with this recommendation. Based on the work of the
  Convictions Task Force, USCIS will create the posters envisioned in this
  recommendation. These posters will serve to reiterate employee reporting
  procedures. USCIS will work with counsel to ensure that the crimes are
  limited to those committed in the workplace, that USCIS does not violate
  privacy laws, and that publication of conviction details will not expose
  USCIS to liability.

  OIG Analysis
  We support USCIS’s continued efforts to learn from the expert analysis
  gained from task forces. The posters can be an important learning tool
  while protecting rights of convicted individuals. This recommendation is
  resolved and open. We anticipate closure after receiving examples of
  posters and related educational materials sent to USCIS field managers.




Efforts to Detect and Deter Fraud Committed by Immigration Services Officers 


                                   Page 8

Greater Interaction Is Needed Between OSI and Field Offices

               Task Forces That Study Previous Convictions Add Value

               OSI uses task forces to examine previous cases of employee fraud
               and identify (1) how such conduct was possible and (2) corrective
               actions to lessen the chance of further malfeasance. Because of
               operational improvements that task forces identified, USCIS
               employees said it is less likely that adjudicators could hide illicit
               activities: There is much better control over an adjudicator’s work,
               including the tracking of building access, greater security over
               naturalization certificates, and random assignment of cases.
               USCIS employees we interviewed and surveyed said that the risk
               of adjudicator misconduct has dropped significantly over the past
               few years.

               During our fieldwork, a convictions task force held its first
               meeting to begin an examination of 10 cases where employee fraud
               led to criminal convictions. As with the task force that examined
               the Schofield case, OSI managers expect that the convictions task
               force will help to diminish the threat of employee fraud through
               process improvements. Another task force had previously
               examined how USCIS can better control adjudication stamps,
               which officially mark the status of particular benefit applications.
               Full control over access to facilities, naturalization certificates, and
               adjudication stamps can inhibit an adjudicator’s ability to grant
               benefits improperly.

               Field Security Managers Can Be More Thoroughly Supported

               OSI needs to work with leadership in service centers and district
               offices to deter employee fraud. A work environment that inhibits
               fraud is the most effective way to protect USCIS customers and
               impede an employee’s fraudulent schemes.

               The FSM is the OSI official in each district office or service
               center. FSMs oversee security management practices in their
               entire district, including access control, protection of sensitive
               property, and threat management. Although FSMs cannot focus
               exclusively on employee misconduct, the relationship between
               FSMs and field office management is important to fostering a
               climate where adjudicators are comfortable talking to OSI.




    Efforts to Detect and Deter Fraud Committed by Immigration Services Officers 


                                       Page 9

           FSMs offered a range of opinion on their ability to bring change to
           USCIS operations. Some FSMs view themselves as part of the
           district staff, and attend local management meetings. Other FSMs
           said that local managers view OSI’s presence as a burden. One
           even suggested that it is a “constant battle” to keep staff informed
           about security procedures because of an inability to gain office
           management’s respect for the FSM’s role. FSMs we met who felt
           less integrated into the management of their office suggested that
           OSI’s organizational position outside of the benefit processing
           chain of command leads district managers to believe that OSI does
           not contribute to the core function of the office: processing cases.
           Office managers believe that their production numbers are central
           to how headquarters views the office.

           FSMs expressed some frustration with the Local Security Officer
           (LSO) program. The LSO is a field office employee, usually a
           senior adjudicator or mission support specialist, with security as a
           collateral duty. LSOs are not OSI employees, but they have a
           range of duties related to security and must work with the FSM to
           facilitate OSI’s security management mission. District office
           FSMs oversee the work of, but do not supervise, the LSOs in the
           field offices. FSMs reported that it is difficult to have sufficient
           time with an LSO during visits to field offices, mainly because
           LSOs have other duties, such as processing benefit applications,
           which are a higher priority for district leadership. This makes a
           true partnership difficult and hinders the oversight of an office’s
           security procedures, including access and information control that
           can be important steps to detecting an adjudicator fraud scheme.
           Some FSMs in districts that cover larger geographic areas said that
           they are unable to monitor all field office locations effectively.
           The FSMs generally said that LSOs, as employees of the district
           office, will allow OSI security efforts to wane rather than fall
           behind on adjudications or other regular work. An LSO’s
           adjudication or office support functions can make it difficult for
           FSMs to spend enough time with the LSO to ensure that all
           security procedures are implemented.

           Some FSMs suggested that more LSOs should be focused
           exclusively on security and employee training functions. During
           the annual budget process, OSI has requested that field offices
           provide full-time LSOs, rather than individuals who have other
           duties. FSMs need reliable local partners to perform the tasks now
           assigned to LSOs. With a revitalized LSO program, the FSM
           could expand work in ethics, reporting, and compliance training.



Efforts to Detect and Deter Fraud Committed by Immigration Services Officers 


                                  Page 10

               This expansion would be a way for OSI to foster additional
               collaboration within the district and field offices.

      Recommendation
      We recommend that the Chief, Office of Security and Integrity, in
      consultation with the Associate Directors of the Field Operations and
      Service Center Operations Directorates:

      Recommendation #3: Redefine the Local Security Officer position to
      ensure that collateral security duties are completed in consultation with the
      Field Security Manager.

      Management Comments and OIG Analysis
      Management Comments to Recommendation #3
      USCIS concurred with this recommendation. The Chief of OSI is reviewing
      a draft management directive that will improve the LSO program.
      Collaboration with Field Security Managers will be emphasized in this new
      policy, which will be the first official USCIS guidance on LSO duties. The
      policy is designed to serve as a reference for FSMs as they work with LSOs
      to improve security procedures.

      OIG Analysis
      This is a credible step that should improve the relationship between OSI
      and USCIS district and field offices. This will have positive effects on
      overall security, and should provide opportunities for FSMs to interact
      with field office staff. This recommendation is resolved and open pending
      finalization of the management directive.

The Integrity Coordinating Committee Should Include Field
Representatives
      OSI has established an Integrity Coordinating Committee (ICC) to create
      ethics training and review policy. The ICC, which meets several times a
      year, includes representatives from 10 headquarters offices, including OSI.
      The committee’s facilitator said that the ICC’s collaborative approach
      provides the views of operational components on various OSI programs.
      Their insight has improved training sessions and fostered better
      relationships.

      The committee does not have representation from regional or district
      managers, although field leadership is vital to the implementation of OSI’s
      mission. None of the field leaders we interviewed knew of the ICC’s
      existence. Creating seats on the ICC for local managers would integrate
      field staff in the creation and implementation of OSI policies. Because of


    Efforts to Detect and Deter Fraud Committed by Immigration Services Officers 


                                      Page 11

      the local viewpoints that district managers could offer, seats on the ICC
      for service center and district office managers would encourage greater
      cooperation between USCIS field operations and OSI. Increasing the
      number of ICC members would not require a major expansion of seats on
      the committee. One new seat for each of USCIS’s four regions, for
      example, would allow local managers to advise the ICC on local
      perspectives.

      Recommendation
      We recommend that the Chief, Office of Security and Integrity:

      Recommendation #4: Include Regional Office representatives on the
      Integrity Coordinating Committee.

      Management Comments and OIG Analysis
      Management Comments to Recommendation #4
      USCIS concurred with this recommendation. In May 2010, USCIS field
      management was invited to join the ICC, which led to regional office
      representation in ongoing Committee activities.

      OIG Analysis
      This is another positive step that should improve OSI’s relationships with
      USCIS field offices. The USCIS Intranet has not been updated to reflect
      the expanded membership on the ICC. This recommendation is resolved
      and open, with closure expected after we have been provided a revised
      ICC membership list.

Policy Focus on Employee Discipline Would Be Beneficial
      Proper discipline for employees and contractors who engage in
      misconduct is an important part of an effective integrity program. Some
      of the staff we interviewed believed that many employee misconduct cases
      did not result in penalties severe enough to instill respect for the USCIS
      ethics and integrity message. The Schofield task force suggested that
      mandatory removal or reassignment be instituted for some offenses, but
      this policy was not adopted.

      In employee misconduct cases resulting in administrative punishments,
      local managers and USCIS human resources personnel, rather than OSI,
      determine employee punishment. In the OSI investigative case files we
      reviewed, field leaders received reports from OSI investigations and were
      asked to take whatever disciplinary action they deemed necessary.
      Because they select and enforce the discipline imposed on noncriminal
      misconduct, district directors and other managers in field offices are


    Efforts to Detect and Deter Fraud Committed by Immigration Services Officers 


                                      Page 12

  essential to making ethics and integrity an enduring part of the USCIS
  culture.

  A process is under way to update a table of penalties that can guide
  managers in making disciplinary decisions. OSI expects that this new
  information will provide for more consistent and supportable discipline
  decisions. Field managers need such guidance to ensure more reasonable
  and consistent disciplinary decisions. Employees and contractors prone to
  misconduct must be seen as threats to USCIS program integrity. Although
  OSI is involved in credible work to shift the existing paradigm, the
  Director of USCIS must reiterate this message. The Director of USCIS is
  best positioned to inform operational offices of agency expectations. As
  the new table of penalties is created, USCIS must also provide regular
  information to all managers about the types of misconduct that led to
  disciplinary action, in addition to the expected discipline for particular
  offenses. By sharing more information about discipline cases and
  ensuring that actions are taken that might deter future misconduct, USCIS
  will create a climate of respect for its employee integrity initiatives.

  Recommendation
  We recommend that the Director, U.S. Citizenship and Immigration
  Services:

  Recommendation #5: Create guidance reports for field managers related
  to the disposition of employee misconduct cases and the expected
  penalties for various types of misconduct.

  Management Comments and OIG Analysis
  Management Comments to Recommendation #5
  USCIS concurred with this recommendation. A new management directive,
  which included a revised table of penalties, was released in June 2010. This
  new policy includes an expanded section related to OSI’s focus on ethics and
  integrity. Efforts are also being made to reconfigure a database to improve
  information sharing related to employee discipline. These changes will allow
  managers to consult reports related to disciplinary actions taken against
  employees.

  OIG Analysis
  Consistent and credible employee discipline is an important step toward
  deterring employee misconduct. This recommendation is closed. No
  further reporting is necessary.




Efforts to Detect and Deter Fraud Committed by Immigration Services Officers 


                                  Page 13

Training Should Present More Examples of Misconduct
      OSI’s current training program was designed to deter workplace
      misconduct. Various tools inform employees of ethical expectations,
      including videos of Robert Schofield discussing his crimes and the
      consequences. OSI uses this video of Schofield in jail to stress that there
      is no place for criminal activities at USCIS. Other training materials
      include the August 2009 OSI Memo on Reporting Allegations of
      Misconduct or Other Inappropriate Behavior, and the “Integrity Begins
      with You” booklet. Also, small laminated cards (in Figure 3), designed to
      be carried by employees, include important ethical guidelines.

      Figure 3. Laminated Pocket Card
                  Front view                                             Rear view




               Source: OSI website

      Most USCIS staff we interviewed believe that the current training program
      is good, and that OSI’s general message is reaching its target audience.
      One supervisor said that her subordinates tend to explain their actions to
      avoid the appearance of impropriety. USCIS employees also suggested
      ways to improve training frequency, content, and use of visual learning
      tools. Most USCIS staff we interviewed had seen the Schofield video.
      Employees agreed that, while the video provided a shocking look at how a
      supervisor committed fraud and the consequences, it may lose some of its
      effectiveness over time. Some staff expressed an interest in viewing
      videos featuring more recent convictions, or cases with local connections.
      It was suggested that when employees view misconduct cases involving
      employees most like themselves, the educational benefit is greater.

      OSI is updating the training program in cooperation with USCIS’ ethics
      office. Training podcasts are being created and made available on the OSI
      website. Some of the podcast topics, such as the appropriate employee
      response if offered a bribe, are directly relevant to the adjudications
      process. Our fieldwork suggested, however, that additional work is
      needed to focus on a variety of adjudication scenarios when the correct
      ethical choice is less clear.




    Efforts to Detect and Deter Fraud Committed by Immigration Services Officers 


                                      Page 14

  Several interviewees suggested that additional guidance is needed in areas
  where fraud concerns are not obvious. Adjudicators expressed an interest
  in receiving additional information on handling gray-area situations. An
  example of such a case appears below.

           An adjudicator is attending a family reunion. A relative
           approaches to say that his girlfriend is trying to become a U.S.
           citizen and the application is pending. She has not heard anything
           from USCIS. The relative wants to know if the adjudicator can
           check on the status of the application.

  Although adjudicators have access to secure files and databases, they are
  prohibited from checking on the status of an application not related to their
  official duties. As OSI is developing more scenario-based training, it is
  important to ensure that new information is directly relevant to choices
  that adjudicators may face when the correct solution may not be obvious.

  Recommendation
  We recommend that the Chief, Office of Security and Integrity:

  Recommendation #6: Update the current training program to include
  recent examples of employee misconduct and scenarios to address less
  obvious forms of misconduct.

  Management Comments and OIG Analysis
  Management Comments to Recommendation #6
  USCIS concurred with this recommendation. Rollout of the revised training
  program is slated for September 2010. USCIS will be including scenarios
  designed to provide real-life examples for Immigration Services Officers.
  The training can be modified to ensure employees receive further instruction
  on misconduct issues as a way to expand OSI’s educational efforts.

  OIG Analysis
  OSI’s work to create a dynamic and relevant training program is a very
  important step to fostering a culture of ethical conduct. USCIS employees
  provided a variety of suggestions on ways to make the training program
  more interesting and informative. This recommendation is resolved and
  open, with closure expected after receipt of updated training materials.




Efforts to Detect and Deter Fraud Committed by Immigration Services Officers 


                                  Page 15

Appendix A
Purpose, Scope, and Methodology

                      We initiated this review to determine USCIS’ efforts to prevent
                      adjudicator misconduct. We reviewed USCIS polices, data, and
                      investigation reports. Our fieldwork did not include a review of
                      how the OSI Office of Investigations tracks employee misconduct
                      cases after allegations are reported.

                      We conducted 82 interviews, including Immigration Service
                      Officers, district and field office personnel, and OSI managers.
                      We visited seven district offices, one service center, and one
                      regional office. We interviewed Field Security Managers in all
                      four USCIS regions.

                      Our analysis included results from an online survey that was sent
                      to 25% of Immigration Service Officers at the four USCIS service
                      centers. We received 292 responses, a 67% response rate. A
                      majority of the respondents had been adjudicating cases for more
                      than 5 years. Survey questions dealt with ethics training, the
                      visibility of ethics posters, whistleblowers, and USCIS
                      vulnerability to employee misconduct. The results of the survey
                      are discussed throughout the report; the survey appears in
                      Appendix D.

                      We conducted our review between January and April 2010 under
                      the authority of the Inspector General Act of 1978, as amended,
                      and according to the Quality Standards for Inspections issued by
                      the President’s Council on Integrity and Efficiency.




           Efforts to Detect and Deter Fraud Committed by Immigration Services Officers 


                                             Page 16

Appendix B
Management Comments to the Draft Report




          Efforts to Detect and Deter Fraud Committed by Immigration Services Officers 


                                            Page 17

Appendix B
Management Comments to the Draft Report




          Efforts to Detect and Deter Fraud Committed by Immigration Services Officers 


                                            Page 18

Appendix B
Management Comments to the Draft Report




          Efforts to Detect and Deter Fraud Committed by Immigration Services Officers 


                                            Page 19

Appendix C
Fifteen Examples of Misconduct That Must Be Reported


   •	 Fraud, corruption, bribery, and embezzlement;

   •	 Theft or misuse of funds and theft of government property

   •	 Perjury

   •	 Physical assault

   •	 Unauthorized release of classified information

   •	 Drug use/possession

   •	 Unauthorized use/misuse of sensitive official government databases

   •	 Misuse of official position for private gain

   •	 Misuse of a government vehicle or property

   •	 Failure to properly account for government funds

   •	 Unauthorized use/misuse of a government purchase or travel card

   •	 Falsification of travel documents

   •	 Falsification of employment application documents

   •	 Misconduct by an employee at the GS-15 level or higher

   •	 Arrest of an employee or contractor by law enforcement personnel, including your
      own arrest




            Efforts to Detect and Deter Fraud Committed by Immigration Services Officers 


                                              Page 20

Appendix D
The Survey of Service Center ISOs

1.	 How long have you been an ISO/adjudicator for USCIS/INS?

                                                   Number                     Percent
Less than 1 year                                   5                           1.7%
More than 1 but less than 3 years                  111                        38.4%
More than 3 but less than 5 years                  18                          6.2%
More than 5 but less than 10 years                 97                         33.6%
More than 10 years                                 58                         20.1%

2. At which Service Center do you currently work?

                                                   Number                     Percent
California                                         74                         25.7%
Nebraska                                           84                         29.2%
Texas                                              55                         19.1%
Vermont                                            75                         26.0%

3.	 How well-trained do you feel about the ethical and legal expectations that have
    been placed on you?

                                                   Number                     Percent
I feel very confident that I have 

received sufficient training regarding

the expectations placed on me                      151                        52.2% 


I have received sufficient information 

and guidance                                       107                        37.0% 


I would like to receive additional 

information and guidance                            28                         9.7% 


I am not trained at all on the expectations 

placed on me                                          3                        1.0% 


4.	 How much additional support is needed from USCIS and OSI for the Service to
    better detect possible criminal activity and fraud committed by ISOs?

                                                   Number                     Percent
A tremendous amount	                                11                         3.8% 


Some, but good progress is being made               76 	                       26.4% 


I’m fully confident that USCIS and OSI are 

taking appropriate steps                     132                              45.8% 




             Efforts to Detect and Deter Fraud Committed by Immigration Services Officers 


                                               Page 21

Appendix D
The Survey of Service Center ISOs

I’m not sure 	                                      69                        24.0%

5.	 Have you ever been placed in an ethically compromised position related to your
    official duties (e.g., a neighbor asking you for a favor or another individual
    pressuring you to approve a petition?)

                                                   Number                     Percent
Yes                                                 38                        13.2%
No                                                 250                        86.8%

6.	 The Office of Security and Integrity has provided posters for USCIS offices for
    purposes of ensuring that OSI reporting information is visible to employees.
    What is your assessment of the number and visibility of posters at your Center
    in work areas, break rooms, and other common areas?

                                                   Number                     Percent
There are a number of highly visible 

posters around the Center                            9                          3.2% 


There are enough visible posters to make 

OSI reporting information visible on a 

regular basis to employees                          66                        22.8% 


Posters are displayed in certain areas, 

but they are relatively small and not easy 

to read                                             28                          9.7% 


I do not notice posters much during the 

course of my daily activities                      186                        64.4% 


7.	 Have you experienced difficulty with OSI when reporting possible improper
    activities or criminal activity committed by ISOs?

                                                   Number                     Percent
Yes                                                  2                         0.7%
No                                                  19                         6.6%
I have not reported any                            267                        92.7%

8.	 Have you observed suspicious or unusual behavior from a supervisor or
    colleague that you believed could indicate unethical or illegal activity?

                                                   Number                     Percent
Yes                                                 25                         8.7%
No                                                 234                        81.0%
I have not observed such behavior


             Efforts to Detect and Deter Fraud Committed by Immigration Services Officers 


                                               Page 22

Appendix D
The Survey of Service Center ISOs

personally but other ISOs have told me

that they have observed such behavior               30                        10.4% 


9.	 Do you believe that the USCIS culture supports “whistleblowers,” those
    individuals who report possible malfeasance, fraud, or unusual/unexpected
    actions committed by supervisors or ISOs?

                                                   Number                     Percent
Yes                                                191                        66.8%
No                                                  95                        33.2%

10. If you suspected that a colleague was accepting a bribe or engaged in other
    illegal conduct, how comfortable would you be reporting your suspicions to OSI
    or the Office of Inspector General?

                                                   Number                     Percent
I would be fully comfortable                       104 	                      36.0% 


It would make me somewhat uncomfortable, 

but I would report the information directly to 

OSI or the OIG without any problem            120                             41.5% 


I would feel very uncomfortable reporting 

information without first contacting 

my supervisor                               65                                22.5% 


11. Even with the efforts of OSI and the focus on ethical conduct at USCIS, how
    vulnerable do USCIS and its customers remain to fraudulent activity committed
    by the Service’s ISOs?

                                                   Number                     Percent
Highly vulnerable                                   19                         6.6%
Somewhat vulnerable                                121                        42.0%
Generally not vulnerable                           129                        44.8%
Not vulnerable at all                               19                         6.6%




             Efforts to Detect and Deter Fraud Committed by Immigration Services Officers 


                                               Page 23

Appendix E
Major Contributors to This Report

                      Douglas Ellice, Chief Inspector, Office of Inspections
                      Darin Wipperman, Senior Inspector, Office of Inspections
                      LaDana Crowell, Inspector, Office of Inspections
                      Ericka Kristine Odiña, Inspector, Office of Inspections




           Efforts to Detect and Deter Fraud Committed by Immigration Services Officers 


                                             Page 24

Appendix F
Report Distribution

                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      USCIS Liaison

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




           Efforts to Detect and Deter Fraud Committed by Immigration Services Officers 


                                             Page 25

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
